No. 20-1010

 

IN THE

Supreme Court of the Anited States

DED RRANXBURGAJ,
Petitioner,

Vv.

DAVID P. PEKOSKE, ACTING SECRETARY OF
HOMELAND SECURITY, et al,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

BRIEF OF AMICI CURIAE
CHURCH WORLD SERVICE, ET AL,
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,992 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 26, 2021.

 

Colin Casey Hbgan
Wilson-Epes Printing Co., Inc.
